Matthew J. Kita
attorney and counselor at law
licensed in texas and california

CERTIFICATE OF COMPLIANCE
No. 19-889
KAUFMAN COUNTY, TEXAS
MATTHEW HINDS
Petitioners
v.
EUNICE J. WINZER
Respondent
As required by Supreme Court Rule 33.l(h), I certify that the Brief in
Opposition to the Petition for Writ of Certiorari contains 2,215 words,
excluding the parts of the Petition that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and
correct. This certificate is executed on May 5, 2020.

Respectfully submitted,

Matthew J. Kita
Counsel of Record
P.O. Box 5119
Dallas, Texas 75208
(214) 699-1863
matt@mattkita.com
Counsel for Respondent

214.699.1863

p.o. box 5119
dallas, texas 75208

matt@mattkita.com

